IN THE SUPREME COURT OF THE STATE OF NEVADA
GARY E. MCKINLEY,
Petitioner,
vs.
THE EIGHTH JUDICIAL DISTRICT
COURT OF THE STATE OF NEVADA,
IN AND FOR THE COUNTY OF
• CLARK,
Respondent,
and
CLARK COUNTY DISTRICT
ATTORNEY; HENDERSON POLICE
DEPARTMENT; AND THE STATE OF
NEVADA DEPARTMENT OF
CORRECTIONS,
Real Parties in Interest.

No. 82175

FEB 08 2021
ELIZABETH A. BROWN
CLERK OF SUPREME COURT

nY

<.Vrv>^vsar

DEPUTY CLERK

<J

ORDER DENYING PETITION AND AMENDED PETITION
This original pro se petition and amended petition for a writ of
mandamus seek an order directing the real parties in interest to (1) comply,
with certain subpoenas and discovery requests, (2) allow and assist
petitioner to electronically file documents and review discovery, (3) provide
petitioner audio/video equipment to participate in district court hearings,
and (4) permit petitioner to keep boxes of legal documents in his prison cell.
Petitioner has not provided this court with all of the exhibits or
other documentation that would support his claims for relief. See NRAP
21(a)(4) (providing the petitioner shall submit an appendix containing all
documents “essential to understand the matters set forth in the petition”).
Thus, we are not persuaded that petitioner has met his burden to show that
our extraordinary intervention is warranted.

See NRS 34.170; Pan v.

Eighth Judicial Dist. Court, 120 Nev. 222, 228, 88 P.3d 840, 844 (2004)
Supreme Court
of

Nevada
(O) 1947A

1

(“Petitioners carry the burden of demonstrating that extraordinary relief is
warranted.”); Smith v. Eighth Judicial Dist. Court, 107 Nev. 674, 677, 818
P.2d 849, 851 (1991) (observing that “the issuance of a writ of mandamus or
prohibition is purely discretionary with this court”). Accordingly, we
ORDER the petition and amended petition DENIED.

, C.J.
Hardesty

,J
Silver

cc:

Gary E. McKinley
Attorney General/Carson City
Clark County District Attorney
Attorney General/Las Vegas
Henderson City Attorney
Eighth District Court Clerk

Supreme Court
of

Nevada
(O) 1947A

2

IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 82175

GARY E. MCKINLEY,
Petitioner,
vs.
THE EIGHTH JUDICIAL DISTRICT
COURT OF THE STATE OF NEVADA,
IN AND FOR THE COUNTY OF
CLARK,
Respondent,
and
CLARK COUNTY DISTRICT
ATTORNEY; HENDERSON POLICE
DEPARTMENT; AND THE STATE OF
NEVADA DEPARTMENT OF
CORRECTIONS,
Real Parties in Interest.

APR 1 6 2021
ELIZABETH A. BROWN
CLERKQF SUPREME COURT
S-7
BY,
DEPUTY CLERK j

ORDER GRANTING MOTION
Petitioner has moved to stay issuance of the remittitur pending
the filing of a petition for a writ of certiorari with the United States
Supreme Court. Because this is an original writ petition, a notice in lieu of
remittitur will issue instead of a remittitur. This court thus grants the
motion to the following extent. Cf. NRAP 41(b)(3). Issuance of the notice in
lieu of remittitur is hereby stayed until August 17, 2021. If the clerk of this
court receives written notice by August 17, 2021, from the clerk of the
United States Supreme Court that petitioner has filed a petition for a writ
of certiorari, the stay shall continue in effect until final disposition of the
certiorari proceedings. If such notice is not received by August 17, 2021, the
notice in lieu of remittitur shall issue forthwith.
It is so ORDERED.

0-^

, C.J.

Supreme Court

>

of

Nevada
(O) 1947A

xr Axed.

i

jo-tow

IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 82175

GARY E. MCKINLEY,
Petitioner,
vs.
THE EIGHTH JUDICIAL DISTRICT
COURT OF THE STATE OF NEVADA,
IN AND FOR THE COUNTY OF
CLARK,
Respondent,
and
CLARK COUNTY DISTRICT
ATTORNEY; HENDERSON POLICE
DEPARTMENT; AND THE STATE OF
NEVADA DEPARTMENT OF
CORRECTIONS,
Real Parties in Interest.

g

MAS 2 4 2021
EUZABEfe A. BiiO'NH
CLERK OF mpmUB COURT

ORDER DENYING REHEARING
Rehearing denied. NRAP 40(c).
It is so ORDERED.

U
Hardesty

f-

fl. ,Tf.A

Silver

cc:

Supreme Court
OF

Nevada
(O) 1947A

Gary E. McKinley
Attorney General/Carson City
Clark County District Attorney
Attorney General/Las Vegas
Henderson City Attorney
Eighth District Court Clerk

. C.J.

